March 19, 2008

SUSAN M. PLONKEY
VICE PRESIDENT, CUSTOMER SERVICE

STEPHEN M. KEARNEY
VICE PRESIDENT, PRICING AND CLASSIFICATION

SUBJECT:           Audit Report – Fiscal Year 2007 Financial Installation Audits –
                   Business Mail Entry Units (Report Number FF-AR-08-131)

This report summarizes the results of financial audits we conducted at 101 statistically
selected business mail entry units (BMEU) for fiscal year (FY) 2007 (Project Number
07BD002FF000). We conducted these audits in support of the audit of the U.S. Postal
Service’s financial statements. The Postal Reorganization Act of 1970 requires annual
audits of the U.S. Postal Service’s financial statements. Refer to Appendix A for
additional information about this audit.

Conclusion

Based on the items we reviewed at 101 BMEUs, financial transactions were reasonably
and fairly presented in the accounting records and, generally, the internal controls we
examined were in place and effective. However, we identified two locations1 where
major segments of business mail entry controls were not effective. In addition, we
identified various internal control and compliance issues related to managing customer
accounts and eligibility; accepting, verifying, and clearing the mail; monitoring Special
Postage Payment System (SPPS) agreements and authorizations; and protecting
Postal Service revenue. Although internal controls were generally in place and
effective, a significant deficiency existed with the acceptance of mail at BMEUs.2 We
have reported similar mail acceptance and other compliance issues in several
consecutive prior fiscal year reports, and Postal Service management has concurred
and agreed to reemphasize policy to the field. Generally, however, these conditions


1
  The sites were Xxxxxxxxx, Maryland, and Xxxxxx, California.
2
  Ernst & Young, LLP, the independent public accounting firm contracted to express an opinion on the Postal
Service’s financial statements, also reported this as a significant deficiency in its Report on Internal Control Over
Financial Reporting and on Compliance and Other Matters Based on an Audit of Financial Statements Performed in
Accordance with Government Auditing Standards (dated November 14, 2007). A significant deficiency is a control
deficiency or combination of control deficiencies that adversely affects the entity’s ability to initiate, authorize, record,
process, or report financial data reliably in accordance with generally accepted accounting principles such that there
is more than a remote likelihood that a misstatement of the entity’s financial statements that is more than
inconsequential will not be prevented or detected by the entity’s internal controls.
Fiscal Year 2007 Financial Installation Audit –                                                           FF-AR-08-131
 Business Mail Entry Units


have not improved, and in many instances, they have worsened.3 Appendix B lists the
sites reviewed,4 Appendix C summarizes our analysis of the nationwide findings,5 and
Appendix D compares FY 2007 findings to FY 2006 findings and the changes we
identified from one year to the next.

We made recommendations to district management addressing the control and
compliance issues at each installation. District management’s comments were
responsive to our findings, recommendations, and $2.3 million in monetary and
$1.8 million in non-monetary impact. The actions taken or planned should correct the
issues identified at these installations. However, without a nationwide corrective action
plan that includes measurable goals for reducing the occurrence of these issues, we
believe they are likely to continue and worsen. This year we also made five referrals to
the U.S. Postal Service Office of Inspector General (OIG) Office of Investigations for
situations that warranted further examination.

Mail Acceptance Procedures

Our audits of 101 BMEU sites showed that Postal Service personnel did not follow mail
acceptance procedures for mail verifications, completion of postage statements, scale
testing and calibration, Mail Evaluation Readability Lookup INstrument (MERLIN)
verifications, verification of sufficient funds for mailings, and operating profiles at
detached mail units (DMU).6 We have reported similar mail acceptance issues in
several consecutive prior fiscal year reports. In response to those reports, Postal
Service management has concurred with our findings and agreed to reemphasize mail
acceptance policies to the field.

Mail Was Not Verified As Required

During our mail observations, we noted mailing personnel did not always follow the
required acceptance, verification, and clearance procedures for mailings.7 For example,
units often received Periodicals mailings during nonbusiness hours, and these mailings
were allowed to enter the mailstream without verification. Although employees knew
the requirements, they allowed the condition to exist. According to a Headquarters
Business Mail Acceptance Marketing Specialist, it is standard operating procedure for
BMEUs to process Periodicals mail that is deposited during nonbusiness hours and not

3
  For example, the number of units with noncompliance issues related to weight scales and calibration, postage
payment and zone accuracy reviews, and SPPS sampling procedures was much higher in FY 2007 than FY 2006.
See Appendix D for additional details on changes in the number of noncompliance issues reported in FYs 2007 and
2006.
4
  Appendix B lists the 101 statistically and one judgmentally selected sites.
5
  Appendix C does not include the judgmentally selected site in the nationwide statistically selected findings. Of the
101 statistically selected sites, 86 had internal control issues, 13 did not have any conditions that materially affected
the reasonableness or fairness of the reported financial data, and two had ineffective controls over major segments of
business mail entry operations.
6
  A DMU is an area in a mailer’s facility where postal employees perform mail verification, acceptance, dispatch, and
other postal functions.
7
  Handbook DM-109, Business Mail Acceptance, Chapters 3 and 6, dated September 2006.




                                                           2
Fiscal Year 2007 Financial Installation Audit –                               FF-AR-08-131
 Business Mail Entry Units


verified. She said the BMEU should make arrangements with the mailer to verify the
publication periodically. As a result, we did not make a recommendation to unit
management; however, we continued to report this issue because current criteria
require Periodicals to receive an initial verification and do not make an exception for
publications delivered during nonbusiness hours. When procedures are not followed,
the Postal Service has reduced assurance that the condition of mailings accepted
meets standards and that customers pay the appropriate postage.

Employees Were Not Properly Completing Postage Statements

Employees did not properly complete permit and Periodicals postage statements.8
There were several reasons why employees did not follow the policies, including
insufficient management oversight, inadequate understanding of the requirements, and
limited time or other job priorities. When postage statements are not properly
completed, the Postal Service has decreased assurance that mailings meet standards
and customers pay the correct postage.

Scales Were Not Tested or Calibrated As Required

Employees did not properly test or calibrate scales used to weight verify the mail.9 This
occurred because of insufficient management oversight. When scales are not tested
and calibrated as required, the Postal Service has an increased risk of revenue loss and
weight verification errors.

Verification Procedures for Mail Evaluation Readability Lookup INstrument Were Not
Followed

Employees did not use the random generator selection list or MERLIN worksheets for
selecting trays of mail to be verified.10 In addition, employees did not always perform
the MERLIN verifications at the proper frequencies. This occurred because of
insufficient management oversight. When procedures are not followed, the Postal
Service has reduced assurance that the condition of mailings meets standards and that
customers pay the appropriate postage.

Insufficient Funds to Cover Mailings

Employees did not monitor customer trust accounts, and they accepted mailings from
accounts that did not have sufficient funds to cover the mailings.11 We identified more
than $423,000 of insufficient funds. This occurred because management did not
provide proper oversight. When customer advance deposit accounts are not verified
before mailing, the Postal Service has reduced assurance that all postage is collected.

8
  Handbook DM-109, Chapter 3.
9
  Handbook DM-109, Sections 265.2 and 356.11.
10
   Handbook DM-109, Section 335.1.
11
   Handbook DM-109, Section 334 (2b).




                                                  3
Fiscal Year 2007 Financial Installation Audit –                                    FF-AR-08-131
 Business Mail Entry Units



Detached Mail Units Did Not Maintain Operating Profiles

Employees did not maintain an operating profile at each DMU.12 This occurred because
of insufficient management oversight. When operating profiles are not established and
maintained, the Postal Service has reduced assurance that DMUs are functioning
according to required procedures.

These issues were reported previously in individual BMEU site reports. Although district
management’s comments were responsive, headquarters and area managers want unit
personnel to take ownership for their actions and be held accountable for any
noncompliance. As a result, we are making additional recommendations to ensure that
BMEU personnel throughout the Postal Service are aware of their roles and
responsibilities as they relate to mail acceptance procedures. If these conditions
continue and are not corrected nationwide, the Postal Service has an increased risk that
key internal controls over financial reporting may not be operating effectively when
implementing requirements of the Sarbanes-Oxley Act of 2002 (PL 107-204, 11 Stat
745).

We recommend the Vice President, Customer Service, and the Vice President, Pricing
and Classification:

      1. Develop and implement an action plan to measurably reduce the current
         deficiency and its likelihood of continuing.

      2. Provide proper management oversight and instructions to schedule periodic
         verifications when Periodicals mailings are received during nonbusiness hours.

      3. Properly train all employees, including supervisors, who accept business and
         Periodicals mail.

      4. Review existing policies and procedures for consistency.

Management’s Comments

Management agreed with our findings and recommendations. To address the issues
cited in this report, management is implementing the following:

      1.      Marketing and Finance personnel created a cross-functional team to identify
              and implement process changes to strengthen internal controls and to
              develop and distribute related training and communication materials.
              Specifically, Financial Control and Support conducted field reviews to identify
              root causes leading to noncompliance with internal controls associated with

12
     Handbook DM-109, Section 231.




                                                  4
Fiscal Year 2007 Financial Installation Audit –                                    FF-AR-08-131
 Business Mail Entry Units


            processing postage statements correctly and timely. The team will finalize the
            review results in March 2008 and use them to identify process improvements.
            In addition, the team started developing additional management reports to
            assist managers in monitoring compliance with established procedures. The
            reports will be available to field managers through the Business Mail
            Acceptance web site by the end of FY 2008.

    2.      Marketing plans to evaluate Periodicals acceptance requirements by
            determining whether it should change policies to accommodate customers
            while ensuring proper collection of revenues. Until Marketing completes the
            evaluation at the end of FY 2008, it is reinforcing requirements through
            communications that local management needs to ensure scheduled
            verifications occur for Periodicals mailings deposited during non-business
            hours.

    3.      Marketing is providing training for Business Mail Entry employees specifically
            addressing the issues raised in this report. It is currently providing training
            with area Train-the-Trainer sessions that they plan to complete by April 2008.
            Marketing will complete all field training by the 4th quarter of this fiscal year.

    4.      The cross-functional team is updating Handbook DM-109, Business Mail
            Acceptance, to clarify acceptance procedures and to improve consistency. It
            expects the revised handbook to be available by the end of FY 2008.

We have included management’s comments, in their entirety, in Appendix E.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations in the
report, and the corrective actions should resolve the issues. The OIG considers all
recommendations significant, and therefore requires OIG concurrence before closure.
Consequently, the OIG requests written confirmation when corrective actions are
completed. These recommendations should not be closed in the follow-up tracking
system until the OIG provides written confirmation that the recommendations can be
closed.




                                                  5
Fiscal Year 2007 Financial Installation Audit –                            FF-AR-08-131
 Business Mail Entry Units



We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact John G. Wiethop, Director,
Field Financial – Central, or me at (703) 248-2100.




John E. Cihota
Deputy Assistant Inspector General
 for Financial Accountability


Attachments

cc: H. Glen Walker
    Frederick J. Hintenach
    Lynn Malcolm
    Vincent H. DeVito, Jr.
    Pritha N. Mehra
    Katherine S. Banks




                                                  6
Fiscal Year 2007 Financial Installation Audit –                                 FF-AR-08-131
 Business Mail Entry Units


                          APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

Beginning in FY 2001, the OIG assumed responsibility for conducting financial audits.
These audits include reviews of revenue-generating units, such as BMEUs. We
conduct these audits in support of the overall audit of the U.S. Postal Service’s financial
statements.

BMEUs are established for authorized business mailers to present business mailings.
The Postal Service requires mailers to properly prepare all mailings, take them to an
approved BMEU, and pay for them before they enter the mailstream, unless otherwise
authorized by the Pricing and Classification Service Center.

Most mailings entered at BMEUs are presorted and receive a discounted rate.
Presorting mail is a work-sharing incentive that offers discounted postage rates to
customers in exchange for performing a portion of mail processing work. Unless
business mailings are properly prepared to qualify for the discounts claimed, the Postal
Service incurs increased processing costs.

The PostalOne! system is the Postal Service’s primary system for recording business
mail and Periodicals transactions. The PostalOne! system allows users to enter
postage statements, deposits, and other financial transactions and to retrieve reports
necessary to manage day-to-day business. It also allows customers to submit postage
statements and other information to the Postal Service through Web-based initiatives.
In addition, the Postal Service has implemented a national business mailer support
database to monitor SPPS agreements at all units. The Postal Service continuously
updates the data to enhance oversight and effectiveness in this area.

OBJECTIVES, SCOPE, AND METHODOLOGY

The objectives of our audit were to determine whether the financial transactions of field
operations were reasonably and fairly presented in the accounting records and whether
internal controls were in place and effective.

To accomplish our objectives, we conducted unannounced audit fieldwork from October
2006 through September 2007 at 101 statistically selected and one judgmentally
selected sites that represented approximately $4.2 billion in revenue for FY 2006. We
randomly selected and reviewed business mail and Periodicals postage statements for
specific reporting periods during FY 2007.

We also reviewed authorizations for all nonprofit mailers and Periodicals publications.
We observed mail acceptance, verification, and clearance processes and reviewed all
SPPS agreements in effect at each BMEU. In addition, we reviewed operations at
associated DMUs.




                                                  7
Fiscal Year 2007 Financial Installation Audit –                                   FF-AR-08-131
 Business Mail Entry Units



We traced recorded financial transactions to and from supporting documentation and
assessed the reliability of computerized data by verifying the computer records to
source documents. We used Postal Service instructions, manuals, policies, and
procedures as criteria to evaluate internal controls and data reliability. We also
evaluated whether management implemented the internal control structure over the
financial reporting and safeguarding of assets as designed. We interviewed supervisors
and employees and observed operations at the Postal Service sites.

We conducted these audits from October 2006 through March 2008 in accordance with
generally accepted government auditing standards and included tests of internal
controls we considered necessary under the circumstances. Those standards require
that we plan and perform audit work to obtain sufficient, appropriate evidence to provide
a reasonable basis for our findings and conclusions based on our audit objectives. We
discussed the results of our audit with management officials on November 28, 2007,
and included their comments where appropriate.

PRIOR AUDIT COVERAGE

We evaluated all findings from OIG reports previously issued to applicable FY 2007
audit sites during FYs 2002 through 2006. We reported the status of the
recommendations in each of the applicable installation reports issued. Additionally, we
issued three headquarters and nine area capping reports during FYs 2004 through 2006
that summarized our installation-level audits. Many of the findings identified in these
reports still continue and are addressed in this audit report.

                                                           OIG Report
                    Audit Report Title                      Number          Report Date
    Fiscal Year 2006 Financial Installation Audit –
    Business Mail Entry Units                              FF-AR-07-090   February 15, 2007
    Fiscal Year 2005 Financial Installation Audit –
    Business Mail Entry Units                              FF-AR-06-113    March 30, 2006
    Fiscal Year 2005 Northeast Area Financial
    Installation Audits                                    FF-AR-06-141     April 26, 2006
    Fiscal Year 2005 Eastern Area Financial Installation
    Audits                                                 FF-AR-06-142     April 25, 2006
    Fiscal Year 2005 New York Metro Area Financial
    Installation Audits                                    FF-AR-06-140     April 24, 2006
    Fiscal Year 2005 Pacific Area Financial Installation
    Audits                                                 FF-AR-06-119    March 30, 2006
    Fiscal Year 2005 Great Lakes Area Financial
    Installation Audits                                    FF-AR-06-118    March 28, 2006
    Fiscal Year 2005 Western Area Financial Installation
    Audits                                                 FF-AR-06-112    March 23, 2006
    Fiscal Year 2005 Capital Metro Area Financial
    Installation Audits                                    FF-AR-06-105    March 20, 2006
    Fiscal Year 2005 Southeast Area Financial
    Installation Audits                                    FF-AR-06-099    March 13, 2006




                                                   8
Fiscal Year 2007 Financial Installation Audit –                                 FF-AR-08-131
 Business Mail Entry Units


                                                          OIG Report
                    Audit Report Title                     Number          Report Date
    Fiscal Year 2005 Southwest Area Financial
    Installation Audits                                   FF-AR-06-087    March 1, 2006
    Fiscal Year 2004 Financial Installation Audit –
    Business Mail Entry Units                             FF-AR-05-065   February 24, 2005




                                                      9
Fiscal Year 2007 Financial Installation Audit –                                                                                                FF-AR-08-131
 Business Mail Entry Units



              APPENDIX B: BUSINESS MAIL ENTRY UNITS AUDITED AND REPORTS ISSUED NATIONWIDE

                                                                                                                                                                 Non-
                                                                                                    FY 2006             OIG Report            Monetary         Monetary
           Unit Name                     Location                        Unit Type                  Revenue              Number               Impact13         Impact14
 1     Xxxxxxx                    Xxxxxxxxxxx                      BMEU                            $102,315,762        FF-AR-07-077             $25,321               $0
 2     Xxxxxxxxx                  Xxxxxxxxxxxxx                    Associate Office                   3,645,164        FF-AR-08-029                    0                0
                                                                   (AO)15
3      Xxxxxxxx16                 Xxxxxxxxxxxx                     BMEU                               6,985,338        FF-AR-07-159                    0                 0
4      Xxxxxxxxxxxxx              Xxxxxxxxxxxxxxxxx                AO                                22,640,107        FF-AR-08-008                    0                 0
5      Xxxxxxxxx17                Xxxxxxxxxxxxx                    BMEU                             191,003,729        FF-AR-07-087              529,744           288,966
6      Xxxxxxx                    Xxxxxxxxxxx                      AO                                   134,515        FF-AR-07-030                    0            15,647
7      Xxxxxxx16                  Xxxxxxxxxxx                      AO                                 1,045,967        FF-AR-07-044                    0                 0
8      Xxxxxxx                    Xxxxxxxxxxx                      BMEU/AO                              592,774        FF-AR-07-249                    0                 0
9      Xxxxxxxxxxx                Xxxxxxxxxxxxxxx                  BMEU                             146,782,231        FF-AR-07-086                3,277                 0
10     Xxxxxxxxxxx16              Xxxxxxxxxxxxxxx                  BMEU                             133,698,476        FF-AR-07-201                    0                 0
11     Xxxxx                      Xxxxxxxxx                        BMEU                               8,861,470        FF-AR-07-088                    0                 0
12     XxxxxxxXxxx                XxxxxxxXxxxxxXX                  BMEU                              10,853,844        FF-AR-07-064                4,071             8,090
13     Xxxxxxxxxx                 XxxxxxxxxxxxXx                   AO                                   146,401        FF-AR-07-143                    0                 0
14     Xxxx Xxxxxx                Xxxx Xxxxxx,xXX                  AO                                   612,226        FF-AR-07-082                    0                 0
15     Xxxxxxxxx                  Xxxxxxxxx, XX                    BMEU                             177,377,833        FF-AR-07-228               37,928                 0
16     Xxxxxxxxxx                 Xxxxxxxxxx, XX                   BMEU                             314,940,320        FF-AR-07-207              330,094                 0
17     Xxxxxxxx                   Xxxxxxxx, XX                     AO                                   485,351        FF-AR-07-055                1,428                 0
18     Xxxxxxx                    Xxxxxxx, Xx                      DMU                               36,475,429        FF-AR-07-112               49,623                 0
19     Xxxxxxx                    Xxxxxxx, Xx                      AO                                74,185,321        FF-AR-07-046               31,626                 0
20     Xxxxxxx Xxxxx              Xxxxxxx Xxxxx, Xx                BMEU                              79,091,356        FF-AR-07-205                    0             4,249
21     Xxxxxx                     Xxxxxx, XX                       AO                                   572,261        FF-AR-07-214                8,932               708

13
   For summary purposes only. We included these amounts in the individual reports previously issued.
14
   For summary purposes only. We included these amounts in the individual reports previously issued.
15
   An AO is a post office that reports to a larger post office or is in the service area of a sectional center facility (SCF). It usually receives and dispatches all mail
classes from and to the SCF.
16
   Internal controls were in place and effective, and we did not note any conditions that materially affected the reasonableness or fairness of the reported financial
data.
17
   Based on the items we reviewed, financial transactions were reasonably and fairly presented in the accounting records and, generally, the internal controls we
examined were in place or effective except for one key area — customer accounts and eligibility requirements.


                                                                                    10
Fiscal Year 2007 Financial Installation Audit –                                                        FF-AR-08-131
 Business Mail Entry Units


                                                                                                                        Non-
                                                                          FY 2006        OIG Report    Monetary       Monetary
             Unit Name                    Location            Unit Type   Revenue         Number       Impact13       Impact14
22       XXxxxxxx16                Xxxxxxxx, XX           AO                $302,131    FF-AR-07-066          $0               0
23       Xxxxxxxxx                 Xxxxxxxxxx XX          BMEU             62,588,145   FF-AR-07-182       5,384               0
24       Xx Xxxx                   Xx Xxxx, XX            BMEU             83,996,431   FF-AR-07-100            0              0
25       Xxxxxxx16                 Xxxxxxx, XX            AO                2,116,702   FF-AR-07-142            0              0
26       Xxxxxxxxx18               Xxxxxxxxx, XX          BMEU             21,494,893   FF-AR-07-189      11,911         46,823
27       Xxxxxxxxxxxxxx            Xxxxxxxxxxxxxx, XX     BMEU             68,839,042   FF-AR-07-212      34,224               0
28       Xxxxxxxx                  Xxxxxxxx, XX           AO                  558,631   FF-AR-07-083      46,606               0
29       Xxxxxxxx16                Xxxxxxxx, Xx           BMEU                718,857   FF-AR-07-204            0              0
30       Xxxxx Xxxxxxxxxx          Xxxxx Xxxxxxxxxx, XX   AO                1,087,356   FF-AR-07-132       1,974               0
31       Xxxxxx16                  Xxxxxx, XX             AO                   41,089   FF-AR-07-176            0              0
32       Xxxxx Xxxxxxx16           Xxxxx Xxxxxxx, XX      BMEU                562,115   FF-AR-07-099            0              0
33       Xxxxxxxxx                 Xxxxxxxxx, XX          AO               17,622,348   FF-AR-07-067            0              0
34       Xxxxxxx                   Xxxxxxx, XX            AO                8,041,208   FF-AR-08-005            0              0
35       Xxxxxxxxxx                Xxxxxxxxxx, XX         AO               40,165,576   FF-AR-07-242            0        60,365
36       Xxxxxx                    Xxxxxx, XX             BMEU             11,389,528   FF-AR-07-057            0              0
37       Xxxxxxx16                 Xxxxxxx, XX            BMEU             19,555,881   FF-AR-07-119            0              0
38       Xxxxxxxxx                 Xxxxxxxxx, XX          BMEU                738,111   FF-AR-07-163            0              0
39       Xxxxxxxx Xxxx             Xxxxxxxx Xxxx, XX      AO                  160,005   FF-AR-07-191            0         1,380
40       Xxxxxxx                   Xxxxxxx, XX            AO                  426,852   FF-AR-07-052            0         8,178
41       Xxxxxxxx-Xxxxxxxx         Xxxxxxxx, XX           AO                6,384,383   FF-AR-07-253      29,806               0
42       Xxxxxxxxx                 Xxxxxxxxx, XX          AO               66,936,670   FF-AR-08-003            0         2,307
43       Xx Xxxx                   Xx Xxxx, XX            AO                  139,425   FF-AR-07-166       5,076               0
44       Xxxxxxx                   Xxxxxxx, XX            BMEU             54,160,926   FF-AR-07-169      50,980         72,855
45       Xxxx                      Xxxx, XX               AO                  103,859   FF-AR-07-063            0         5,241
46       Xxxxxxxxxx                Xxxxxxxxxx, XX         BMEU                448,852   FF-AR-07-105       4,523               0
47       Xxxxxxxxxxx               XXxxxxxxxxx, XX        AO                  341,556   FF-AR-07-074       5,559         15,033
48       Xxxxxxxx                  Xxxxxxxx, XX           AO                3,012,946   FF-AR-07-050       2,678               0
49       Xxxxxxxxx                 Xxxxxxxxx, XX          BMEU            108,038,886   FF-AR-07-155            0              0
50       Xxxxx                     Xxxxx, XX              BMEU             43,518,157   FF-AR-07-185       2,300               0
51       Xxxxxxxx                  Xxxxxxxx, XX           BMEU             20,424,133   FF-AR-07-080            0              0

18
     We judgmentally selected this site.


                                                                     11
Fiscal Year 2007 Financial Installation Audit –                                                    FF-AR-08-131
 Business Mail Entry Units


                                                                                                                    Non-
                                                                      FY 2006        OIG Report    Monetary       Monetary
           Unit Name                  Location           Unit Type    Revenue         Number       Impact13       Impact14
52    Xxxxxxxx X. Xxxxxx       Xxx Xxxxx, XX         BMEU            $167,193,259   FF-AR-07-125     $50,581               0
53    Xxxxx                    Xxxxx, XX             AO                 3,932,403   FF-AR-07-085      11,328        101,452
54    Xxxxxx                   Xxxxxx, XX            BMEU              17,488,330   FF-AR-07-095      72,286        791,436
55    Xxxxx                    Xxxxx, XX             BMEU              96,170,070   FF-AR-07-109            0              0
56    Xxxxxxxxxxx              Xxxxxxxxxxx, XX       AO                 2,516,657   FF-AR-08-018       2,670               0
57    Xxxxxxxxxx               Xxxxxxxxxx, XX        AO                   656,452   FF-AR-07-233       4,190          6,463
58    Xxxxxxxx                 Xxxxxxxx, XX          BMEU               1,129,037   FF-AR-07-234            0              0
59    Xxxxxxxxx16              Xxxxxxxxx, XX         BMEU             164,931,977   FF-AR-07-198            0              0
60    Xxxxxx                   Xxxxxx, XX            BMEU               5,745,393   FF-AR-07-059            0              0
61    Xxxxxx                   Xxxxxx, XX            BMEU              57,439,496   FF-AR-07-102      13,435         54,446
62    Xxxxxxxxxx               Xxxxxxxxxx, XX        AO                 6,464,821   FF-AR-08-013       2,342               0
63    Xxxxxxxx Xxxx            Xxxxxxxx Xxxx, XX     BMEU             100,187,051   FF-AR-07-167      61,804               0
64    Xxxxxxx                  Xxxxxxx, XX           BMEU              68,812,820   FF-AR-07-065      71,449          1,097
65    Xxxxxx                   Xxxxxx, XX            AO                   417,252   FF-AR-07-071            0         2,447
66    Xxxxxxxxx                Xxxxxxxxx, XX         AO                    83,511   FF-AR-07-128            0              0
67    Xxxxx                    Xxxxx, XX             AO                   215,985   FF-AR-08-006       4,312          3,872
68    Xxxxxxxxxxx              Xxxxxxxxxxx, XX       BMEU               1,171,055   FF-AR-07-051            0              0
69    Xxxxxxxxxx               Xxxxxxxxxx, XX        BMEU               9,517,866   FF-AR-07-054         895         63,800
70    Xxxxxxx                  Xxxxxxx, XX           AO                   219,826   FF-AR-08-002            0              0
71    Xxxxxxx                  Xxxxxxx, XX           BMEU              22,781,019   FF-AR-07-187            0              0
72    Xxxxxxxxxx               Xxxxxxxxxx, XX        BMEU             232,359,670   FF-AR-07-097      97,521               0
73    Xxx Xxxxxx               Xxx Xxxxxx, XX        BMEU               1,756,604   FF-AR-07-193       1,041               0
74    Xxx Xxxxxxxxx            Xxx XXxxxxxxx, XX     BMEU             121,561,332   FF-AR-07-217      32,367         61,839
75    Xxx Xxxx                 Xxx Xxxx, XX          BMEU              49,103,692   FF-AR-07-098       1,343               0
76    Xxxxxxx Xxxxxxx          Xxxxxxx Xxxxxxx, XX   BMEU             176,442,391   FF-AR-07-117            0              0
77    Xxxxxx                   Xxxxxx, XX            BMEU              27,600,947   FF-AR-07-129       7,120               0
78    Xxxxx Xxxxxxxx           Xxxxxxx Xxxx, XX      BMEU             116,908,783   FF-AR-07-049       6,997          1,639
79    Xxxxxxxxxxx              Xxxxxxxxxxx, XX       AO                 2,157,579   FF-AR-07-235      36,709         12,690
80    Xx. Xxxxxxxxxx16         XX. XXxxxxxxxx, XX    BMEU              76,747,101   FF-AR-07-079            0              0
81    Xxxxxxxxxxxx16           Xxxxxxxxxxxx, XX      AO                    87,105   FF-AR-07-181            0              0
82    Xxxxxx                   Xxxxxx, XX            AO                   425,034   FF-AR-07-150            0              0
83    Xxxxxx                   Xxxxxx, XX            BMEU               3,817,049   FF-AR-07-252            0              0


                                                                12
Fiscal Year 2007 Financial Installation Audit –                                                                                        FF-AR-08-131
 Business Mail Entry Units


                                                                                                                                                         Non-
                                                                                              FY 2006             OIG Report          Monetary        Monetary
           Unit Name                   Location                    Unit Type                  Revenue              Number              Impact13        Impact14
 84    Xxxxxxx                  Xxxxxxx, XX                    AO                                $482,663        FF-AR-07-114             $1,766          15,476
 85    Xxxxxxxxxx               Xxxxxxxxxx, XX                 AO                             123,690,682        FF-AR-07-153             59,389                0
 86    Xxxxxxxxxxx              Xxxxxxxxxxx, XX                BMEU                            82,709,177        FF-AR-07-157             42,294                0
 87    Xxxxxxxxxxx              Xxxxxxxxxxx, XX                AO                                 297,168        FF-AR-07-211              2,955                0
 88    Xxxxxxxx                 Xxxxxxxx, XX                   AO/DMU                          96,728,522        FF-AR-07-168                   0         63,174
 89    Xxx Xxxx                 XXx Xxxx, XX                   BMEU                            75,303,359        FF-AR-07-174            128,524                0
 90    Xxxxxxxx                 Xxxxxxxx, XX                   AO                               1,729,116        FF-AR-07-218              1,488           1,047
 91    Xxxxxx19                 Xxxxxx, XX                     BMEU                             1,586,758        FF-AR-07-032              7,581           6,016
 92    Xxxxxxx                  Xxxxxxx, XX                    AO                                 444,820        FF-AR-07-047                   0               0
 93    Xxxx Xxxx Xxxxx          Xxxx Xxxx Xxxxx, XX            BMEU                            29,527,722        FF-AR-07-108             27,647                0
 94    Xxxxxxx16                Xxxxxxx, XX                    BMEU                            33,360,023        FF-AR-07-210                   0               0
 95    Xxxxxxxxxx               Xxxxxxxxxx, XX                 AO                                 110,592        FF-AR-07-127                   0               0
 96    Xxxxxxxxxxx              Xxxxxxxxxxx, XX                AO                                 418,944        FF-AR-07-072                   0               0
 97    Xxxxxxxxx Xxxxxx         Xxxxxxxxx Xxxxxx, XX           AO                                 540,669        FF-AR-07-084                   0               0
 98    Xxxxxxxxxx               Xxxxxxxxxx, XX                 AO                               7,353,846        FF-AR-07-190              3,332                0
 99    Xxxxxxxxx                Xxxxxxxxx, XX                  BMEU                            54,531,186        FF-AR-07-195            314,605                0
100    Xxxxx                    Xxxxx, XX                      BMEU                           193,583,085        FF-AR-07-106                   0         47,608
101    Xxxxxxx                  Xxxxxxx, XX                    AO                                 236,177        FF-AR-07-135                   0               0
102    Xxxx                     Xxxx, XX                       BMEU                            36,719,122        FF-AR-07-115              1,314                0
       Totals                                                                              $4,231,755,767                             $2,292,350      $1,774,256




19
  Based on the items we reviewed, financial transactions were reasonably and fairly presented in the accounting records and, generally, the internal controls we
examined were in place or effective except for one key area — SPPS agreements and authorizations.


                                                                                13
Fiscal Year 2007 Financial Installation Audit –                                                            FF-AR-08-131
 Business Mail Entry Units



                     APPENDIX C: ANALYSIS OF NATIONWIDE FINDINGS

In support of the objectives, the audit team employed a stratified random sample of
BMEUs. The sample design allows statistical projection of the number of units with the
types of internal control deficiencies that were the subject of the audit. We made
separate projections for each category with internal control deficiencies. The audit
universe consisted of 2,475 units with revenues above $50,000. We sampled 101 units
as a stratified attributes design further allocated to each of three revenue-based strata.20

We calculated the point estimate of the total number of deviations, as well as the
associated confidence interval. Based on the sample results, we project the following
with a 95 percent confidence level.




20
   So that we could statistically project the number of units with internal control deficiencies, we did not include the
one judgmentally selected location. While we reported compliance issues, we noted compensating controls that
allowed us to conclude that, generally, internal controls were in place and effective. These issues were not material
to the financial statements and did not affect the overall adequacy of internal controls considered necessary for a
financial statement audit. This appendix includes deficiencies that we reported only at six or more sites.


                                                           14
Fiscal Year 2007 Financial Installation Audit –                                                       FF-AR-08-131
 Business Mail Entry Units



                                                                              Lower        Point        Upper
                                                                              Bound       Estimate      Bound

                                                                              Total         Total        Total
              Description of Internal Control Deficiency                     (Rate)21      (Rate)22     (Rate)23
          Customer Accounts and Eligibility Requirements
  The unit did not close inactive business mail or Periodicals                1,009         1,299        1,589
  advance deposit accounts and refund balances.                               (41%)         (53%)        (64%)
  The unit did not verify Periodicals advertising percentages or               600           882         1,165
  publishing frequencies.                                                     (24%)         (36%)        (47%)
  The unit did not conduct postage payment and zone accuracy                   532           809         1,085
  reviews or properly document them.                                          (22%)         (33%)        (44%)
  The unit did not verify that mailers filed Postal Service (PS) Form
  3526, Statement of Ownership, Management, and Circulation (All
  Periodicals Publications Except Requester Publications), correctly            241           417         592
  or in a timely manner.                                                      (10%)         (17%)        (24%)
  The unit did not reconcile master trust balances in the Accounting            122           319         515
  Data Mart with balances maintained by the unit.                              (5%)         (13%)        (21%)
                                                                                 67           221         374
  The unit accepted mail at nonprofit rates without authorization.
                                                                               (3%)          (9%)         (15)
                                                                                 25           172         318
  The unit did not conduct Periodicals eligibility reviews.
                                                                               (1%)          (7%)        (13%)
     Mail Acceptance, Verification, and Clearance Procedures
  During our observations, the unit did not accept mail according to           638           931         1,225
  Postal Service instructions.                                                (26%)         (38%)        (50%)
  The unit did not post data from the permit or business mail
  postage statement to the mailer's account (PostalOne!) within a
  reasonable amount of time. (This includes statements not posted              309           564          819
  and those not posted in a timely manner.)                                   (13%)         (23%)        (33%)
  The unit did not verify that the mailer’s sections of the permit or          255           515          774
  business mail postage statement were completed.                             (10%)         (21%)        (31%)
  The unit did not complete the Postal Service sections of the                 267           515          762
  permit or business mail postage statement.                                  (11%)         (21%)        (31%)
  The unit did not have or provide a scale for weight verification,
  properly test the scale, or calibrate the scale annually at the               258          515          771
  BMEU or DMU.                                                                (10%)         (21%)        (31%)
  The unit did not round stamp and sign the permit or business mail             145          368          590
  postage statement.                                                           (6%)         (15%)        (24%)
  The unit did not post data from Periodicals postage statement to
  the mailer's account (PostalOne!) within a reasonable amount of
  time. (This includes statements not posted and those not posted               96           319          541
  in a timely manner.)                                                         (4%)         (13%)        (22%)
  The unit did not round stamp and sign the Periodicals postage                 48           270          491
  statement.                                                                   (2%)         (11%)        (20%)
  The unit did not use the random selection list and MERLIN
  worksheets to select trays of mail to be verified on MERLIN, and
  did not always perform MERLIN verifications at the proper                     208          245          282
  frequencies                                                                  (8%)         (10%)        (11%)

21
   The lower bound is the estimated number of deviations (units) in which the condition may exist. When the lower
bound is less than the number observed in the sample, the observed number is presented in the table as the lower
limit.
22
   The point estimate is the estimated total number of deviations (units) in which the condition may exist.
23
   The upper bound is the estimated number of deviations (units) in which the condition may exist.


                                                        15
Fiscal Year 2007 Financial Installation Audit –                                              FF-AR-08-131
 Business Mail Entry Units


                                                                       Lower       Point       Upper
                                                                       Bound      Estimate     Bound

                                                                        Total      Total        Total
              Description of Internal Control Deficiency               (Rate)21   (Rate)22     (Rate)23
  The unit did not monitor customer trust accounts and accepted
  mailings from accounts that did not have sufficient funds to cover     166         245         324
  the mailings.                                                         (7%)       (10%)        (13%)
  The unit did not complete the Postal Service section for weight         24         221         417
  per copy on the Periodicals postage statement.                        (1%)        (9%)        (17%)
  The unit did not verify that the publisher or customer sections of       7         172         370
  the Periodicals postage statement were completed.                     (.3%)       (7%)        (15%)
  The unit did not attach PS Form 3607, Weighing and Dispatch
  Certificate, to the permit/business mail postage statement after        22        147           272
  entering the data in PostalOne!.                                      (1%)       (6%)         (11%)
                                                                         103        147           191
  The unit did not maintain an operating profile for each DMU.
                                                                        (4%)       (6%)          (8%)
                  SPPS Agreements/Authorizations
  The unit did not follow sampling procedures or sample manifest         87          245         403
  mailings at the prescribed frequency.                                 (4%)       (10%)        (16%)
  The unit did not comply with SPPS agreements and value-added           33          172         310
  refund mailings.                                                      (1%)        (7%)        (13%)
  The unit did not have SPPS mailing authorizations or agreements        45          147         249
  on file or have current authorizations or agreements.                 (2%)        (6%)        (10%)
  The unit did not always attach quality control standards to SPPS
  agreements or conduct quality control checks and reviews at the        96         147          198
  required frequencies.                                                 (4%)       (6%)         (8%)
                          Revenue Protection
  The unit did not use or maintain a bypass mail log or have a           179         392         606
  process in place to identify bypassed mail.                           (7%)       (16%)        (25%)
  The unit did not monitor for missing Periodicals postage                88         172         255
  statements (frequency breaks) or review mailing frequencies.          (4%)        (7%)        (10%)




                                                    16
Fiscal Year 2007 Financial Installation Audit –                                             FF-AR-08-131
 Business Mail Entry Units


     APPENDIX D: COMPARISON OF FY 2007 FINDINGS TO FY 2006 FINDINGS

                                                                    FY 2007         FY 2006
                                                                   Number of       Number of
                                                                   Sites with      Sites with
                                                                    Finding         Finding

                                                                  Sample Size =   Sample Size =
             Description of Internal Control Deficiency               101             100

                Customer Accounts and Eligibility
        The unit did not close inactive business mail or
        Periodicals advance deposit accounts and refund
        balances.                                                      53              52
        The unit did not verify Periodicals advertising
        percentages or publishing frequencies.                         36              25
        The unit did not conduct postage payment and zone
        accuracy reviews or properly document them.                    33              24
        The unit did not verify that mailers filed PS Form
        3526 correctly or in a timely manner.                          17              9
        The unit did not reconcile master trust balances
        in the Accounting Data Mart with balances
        maintained by the unit.                                        13              19
        The unit accepted mail at nonprofit rates
        without authorization.                                         9               8
        The unit did not conduct eligibility reviews for
        Periodicals.                                                   7               5
                  Mail Acceptance, Verification, and
                        Clearance Procedures
        During our observations, the unit did not accept mail
        according to Postal Service instructions at the
        BMEU.                                                          38              33
        The unit did not post data from the permit/business
        mail postage statement to the mailer's account
        (PostalOne!) within a reasonable amount of time.
        (This includes statements not posted and those not
        posted in a timely manner.)                                    23              27
        The unit did not verify that the mailer's completed
        sections of the permit or business mail postage
        statement were completed.                                      21              34
        The unit did not complete the Postal Service
        sections of the permit or business mail postage
        statement.                                                     21              34
        The unit did not have or provide a scale for weight
        verification, properly test the scale, or calibrate the
        scale annually at the BMEU or DMU.                             21              9
        The unit did not round stamp and sign the
        permit/business mail postage statement.                        15              13
        The unit did not post data from the Periodicals
        postage statement to the mailer's account
        (PostalOne!) within a reasonable amount of time.
        (This includes statements not posted and those not
        posted in a timely manner.)                                    13              17



                                                      17
Fiscal Year 2007 Financial Installation Audit –                                           FF-AR-08-131
 Business Mail Entry Units


                                                                  FY 2007         FY 2006
                                                                 Number of       Number of
                                                                 Sites with      Sites with
                                                                  Finding         Finding

                                                                Sample Size =   Sample Size =
             Description of Internal Control Deficiency             101             100
        The unit did not round, stamp, and sign the
        Periodicals postage statement.                               11              4
        The unit did not use the random selection list and
        MERLIN worksheets to select trays of mail to be
        verified on MERLIN and did not always perform the
        verifications at the proper frequencies.                     10              9
        The unit did not monitor customer trust accounts and
        accepted mailings from accounts that did not have
        sufficient funds to cover the mailings.                      10              7
        The unit did not complete the Postal Service section
        for weight per copy on the Periodicals
        postage statement.                                           9               12
        The unit did not verify that publisher and customer
        sections of the Periodicals postage statement were
        completed.                                                   7               11
        The unit did not attach PS Form 3607 to the
        permit/business mail postage statement after
        entering the data in PostalOne!.                             6               0
        The unit did not maintain an operating profile
        for each DMU.                                                6               6

                SPPS Agreements/Authorizations
        The unit did not follow sampling procedures or
        sample manifest mailings at the prescribed
        frequency.                                                   10              1
        The unit did not comply with SPPS agreements and
        value-added refund mailings.                                 7               7
        The unit did not have SPPS authorizations or
        agreements on file or have current authorizations or
        agreements.                                                  6               11
        The unit did not always attach quality control
        standards to SPPS agreements or conduct quality
        control checks and reviews at required frequencies.          6               2

                        Revenue Protection
        The unit did not use or maintain a bypass mail log or
        have a process in place to identify bypassed mail.           16              11
        The unit did not monitor for missing Periodicals
        postage statements (frequency breaks) or review
        mailing frequencies.                                         7               5




                                                    18
Fiscal Year 2007 Financial Installation Audit –              FF-AR-08-131
 Business Mail Entry Units



                         APPENDIX E: MANAGEMENT’S COMMENTS




                                                  19
Fiscal Year 2007 Financial Installation Audit –        FF-AR-08-131
 Business Mail Entry Units




                                                  20
Fiscal Year 2007 Financial Installation Audit –        FF-AR-08-131
 Business Mail Entry Units




                                                  21
